No. 20-6855

IN THE
SUPREME COURT OF THE UNITED STATES

STACIA O'NEIL
Petitioner,
v.
MARISA BERQUIST,

TRAVELERS INDEMNITY COMPANY OF CONNECTICUT,

Respondents.

PROOF OF SERVICE

I,STACIA O'NEIL , do swear or declare that on this date, 3//51c?ocl-i ,
2021 , as required by Supreme Court Rule 29 I have served the enclosed
SUPPLEMENTAL PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party's counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:

John P. Graceffa, Esq.
Nicollete B. Dailey, Esq.
Morrison Mahoney, LLP
250 Summer Street
Boston, MA 02210
jgraceffa@morrisonmahoney.com
ndailey@morrisonmahoney.com
Attorney for Respondent, Travelers Indemnity Company of Connecticut
Dave Bae, Esq.
Michael P. Johnson, Esq.
Boyle and Shaughnessy Law PC
695 Atlantic Avenue
11th Floor
Boston, MA 02111
dbae@boyleshaughnessy.com
Attorney for the Respondent, Marisa Berquist

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 15th, 2021

Respectfully submitted,

ViA.A0
STACIA O'NEIL
24 Milbern Avenue
Hampton, NH 03842

